Kyle D. Hawkins
Solicitor General

(512) 936-1700
kyle.hawkins@oag.texas.gov

May 4, 2020
Via E-File
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
sharris@supremecourt.gov
Re:

Taylor v. Riojas, No. 19-1261
Motion to Extend Time to File Response to Petition for Writ of
Certiorari

Dear Mr. Harris:
I represent Respondents Robert Riojas, Ricardo Cortez, Stephen Hunter, Larry Davidson, Shane Swaney, and Joe Martinez. Pursuant to Supreme Court Rule 30.4, Respondents respectfully request an extension of the time for filing a response to the
petition for writ of certiorari in Taylor v. Riojas, No. 19-1261.
The response is currently due on June 1, 2020. A 30-day extension is needed because
of the press of business from numerous matters with deadlines near the current deadline, which require significant time and attention from the undersigned counsel and
other counsel assisting with this matter.
Opposing counsel has consented to the requested extension. No prejudice would
arise from the requested extension.
For the foregoing reasons, Respondents respectfully request an extension of the
deadline for filing a response to the petition for writ of certiorari, creating a new
deadline of July 1, 2020.

P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

Scott S. Harris
May 4, 2020
Page 2
Sincerely,
/s/ Kyle D. Hawkins
Kyle D. Hawkins
Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Kyle.Hawkins@oag.texas.gov
Counsel for Respondents
cc:

Kelsi Brown Corkran (Counsel for Petitioners)

P os t Of fic e B ox 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. t exa satt or n eygen era l. gov

